<html>
<title> - BROADBAND MAPPING: SMALL CARRIER PERSPECTIVES ON A PATH FORWARD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    BROADBAND MAPPING: SMALL CARRIER PERSPECTIVES ON A PATH FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON CONTRACTING AND INFRASTRUCTURE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 25, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 116-030
             Available via the GPO Website: www.govinfo.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-775                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f3f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>                           
                   
                  
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jared Golden................................................     1
Hon. Pete Stauber................................................     2

                               WITNESSES

Mr. Dan Stelpflug, Director, Operations, Engineering & 
  Technology, Allamakee Clayton Electric Cooperative, Postville, 
  IA, testifying on behalf of the National Rural Electric 
  Cooperative Association........................................     5
Mr. Tim Donovan, Senior Vice President, Legislative Affairs, 
  Competitive Carriers Association, Washington, DC...............     7
Ms. Beth Osler, Director, Customer and Industry Relations, 
  UniTel, Inc., Unity, ME, testifying on behalf of the NTCA--The 
  Rural Broadband Association....................................     9
Mr. Jason Hendricks, Chief Regulatory Officer, Range Companies, 
  Forsyth, MT, testifying on behalf of the WTA--Advocates for 
  Rural Broadband................................................    10

                                APPENDIX

Prepared Statements:
    Mr. Dan Stelpflug, Director, Operations, Engineering & 
      Technology, Allamakee Clayton Electric Cooperative, 
      Postville, IA, testifying on behalf of the National Rural 
      Electric Cooperative Association...........................    24
    Mr. Tim Donovan, Senior Vice President, Legislative Affairs, 
      Competitive Carriers Association, Washington, DC...........    39
    Ms. Beth Osler, Director, Customer and Industry Relations, 
      UniTel, Inc., Unity, ME, testifying on behalf of the NTCA--
      The Rural Broadband Association............................    51
    Mr. Jason Hendricks, Chief Regulatory Officer, Range 
      Companies, Forsyth, MT, testifying on behalf of the WTA--
      Advocates for Rural Broadband..............................    58
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    USTelecom....................................................    64

 
    BROADBAND MAPPING: SMALL CARRIER PERSPECTIVES ON A PATH FORWARD

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Contracting and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Jared Golden 
[chairman of the Subcommittee] presiding.
    Present: Representatives Golden, Finkenauer, Veasey, 
Balderson, Hagedorn, and Stauber.
    Chairman GOLDEN. Good morning. The Committee will come to 
order. Thank you all for joining us this morning and a special 
thanks to the witnesses for being here today.
    Reliable and affordable high-speed broadband connections 
are a vital aspect of doing business in this day and age. 
Sadly, at least 25 million Americans still lack access to high-
speed internet, many of which live in remote parts of our 
country. We all realize it is more difficult and expensive to 
build out broadband networks in these areas, but that is no 
excuse to leave them behind.
    To do so results in a divide between our urban and rural 
economies that reduces economic opportunity for millions of 
Americans and small businesses. In fact, more than 26 percent 
of Americans in rural America lack access to high-speed 
broadband compared to 1.7 percent in urban areas. And people 
that live in these towns across the country notice: 58 percent 
of rural Americans believe that lack of access to high-speed 
internet is a problem in their hometowns.
    In my home district, at least 37,000 people don't have 
access to a wired, high-speed internet connection and 9,000 
don't have a wired connection at all. As we will discover 
through this hearing, the problem is likely much worse as these 
numbers come from counts that overestimate both coverage and 
speeds available in rural communities.
    To achieve parity across the country Congress must work to 
coordinate Federal resources and make commonsense investments 
in targeted infrastructure projects. To do this the Federal 
Government must have accurate data to ensure that funds and 
resources are efficiently allocated to expand coverage to 
unserved areas.
    Effectively mapping our current broadband is a necessary 
and obvious step. However, the current state of broadband 
mapping is unacceptable at best, I would say. There is strong 
evidence that the percentage of Americans without broadband 
access is much higher than the FCC's numbers indicate. Even the 
FCC Chairman is on record recognizing the lack of accurate and 
granular data.
    The Chairman has stated he will introduce an order in 
August to address broadband mapping. In doing so, it is 
imperative that the FCC develop rules that require large 
carriers to submit reports with more granular data. For 
example, instead of using census blocks, carriers can submit 
coverage reports based on much smaller geographic or submit 
shapefiles instead of Form 477 data.
    But great granularity is not a silver bullet. Robust and 
in-depth authentication of broadband coverage data needs to be 
conducted to assess whether communities are truly connected. In 
Maine, along with Minnesota, we are using publicly available 
data to develop more accurate maps on behalf of the Federal 
Government.
    Members of this committee have heard from constituents 
across the country about slow download speeds and spotty 
connections. My home state of Maine has the second slowest 
broadband speeds in the country. Without access to reliable 
internet, small firms in rural areas miss opportunities to 
connect with new customers and can't take advantage of cost-
saving tools, like digital payment processing and online 
distribution services.
    Finally, children in rural areas also need access to high-
speed broadband to utilize cutting-edge educational tools so we 
can usher in the next generation of tech-savvy entrepreneurs. 
This is something the Ranking Member, Congressman Stauber, and 
I talked about in a field hearing in Minnesota. And this has 
actually in his area and I am sure in mine, too, become a bit 
of a real estate issue. It is something that is critically 
important. People want to buy homes and live in areas with 
access to broadband internet.
    We can no longer accept that rural means digitally 
disconnected. Private investment is not enough and inaccurate 
maps are a major barrier to the efficient expansion of 
broadband networks across the country.
    I hope that today's discussion will shed light on ways to 
improve data and accountability in broadband mapping. I look 
forward to working with my colleagues in Congress toward 
developing accurate broadband maps and bridging the digital 
divide.
    I thank each of the witnesses for joining us today and I 
look forward to your testimony.
    I would now like to yield to the Ranking Member, Mr. 
Stauber, for his opening statement.
    Mr. STAUBER. Thank you, Mr. Chair. Good morning and thank 
all of you for being with us today. I appreciate your time and 
your interest in our hearing.
    As we all have witnessed in the last decade or so, modern 
communications technology has provided infinite opportunities 
for small businesses and particularly new and exciting ones to 
small firms located in rural America. The growth of the 
telecommunications industry and the advances in the way we 
communicate with each other in recent history has been nothing 
short of amazing.
    Because of this rapid advancement we have seen a revolution 
of sorts for small businesses, as well. Small firms communicate 
with potential buyers around the world. Family farmers use 
wireless technologies to monitor and maximize their crop 
production. Entrepreneurs can launch a website from just about 
anywhere and, with the use of the now commonplace smartphone, 
can accept payments from anywhere there is a wireless signal. 
Most importantly, these new technologies provide the gateway 
and opportunity for economic growth and job creation, 
especially in rural America.
    Today, more than 24 million Americans lack access to high-
speed internet, the vast majority of whom live in rural 
communities. In my home state of Minnesota specifically, over 
400,000 people do not have access and those that are lucky 
enough to have access may only have one provider to choose 
from.
    Just last month, Chairman Golden visited my district and 
held a field hearing with me, with my fellow committee members, 
and Minnesotans Jim Hagedorn and Angie Craig on the digital 
divide and how we can work to ensure better broadband access to 
rural areas. At that hearing we discussed that in a world where 
choice seems abundant, many Minnesotans are left optionless. 
When comparing urban and rural broadband deployment, 97.9 
percent of urban American has access to both and mobile 
broadband while only 68.6 percent of rural citizens have that 
same access. We cannot continue to leave our constituents 
behind just because they choose to live in rural communities.
    Since 2011, the National Broadband Map has been a tool for 
consumers, businesses, policymakers, and researchers by 
providing a searchable way to find out who is offering 
broadband, what types of broadband they are offering, and where 
they are offering it from.
    But the mapping platform has become dated as has the 
coverage data. The current map has been widely criticized for 
overestimating how many people have access to high-speed 
internet. Because the FCC uses the map to determine where to 
devote billions of dollars in broadband investment, the issue 
has drawn intense scrutiny from people who say they are being 
overlooked.
    At an oversight hearing earlier this month in the Senate, 
FCC Chairman Ajit Pai announced that in August he will 
circulate an order to update the method in which the FCC 
constructs the map to make it more accurate and be a better 
indicator of where we should invest.
    Today our panel of telecom providers will help us 
understand what goes into creating the map and how we can make 
it more accurate to ensure we invest Federal dollars in the 
right place. Thank you all again.
    And, Mr. Chair, I yield back.
    Chairman GOLDEN. Thank you. The gentleman yields back. And 
if Committee members have opening statements, we would ask that 
they be submitted for the record.
    I would like to take just a quick minute to explain the 
timing rules. Each witness will get 5 minutes to testify and 
members will get 5 minutes for questioning. There is a lighting 
system to assist you. The green light comes on when you begin, 
the yellow light means there is 1 minute remaining, don't panic 
when that happens, and the red light comes on when you are out 
of time. And we ask that you stay within that timeframe to the 
best of your ability. We won't shut you down immediately if you 
have a quick point that you need to wrap up, please feel free 
to do so.
    And I would now like to introduce our witnesses for today's 
panel. Our first witness is Mr. Tim Donovan, the senior vice 
president of legislative affairs at the Competitive Carriers 
Association, the leading association representing competitive 
wireless telecommunications providers. Prior to joining CCA he 
served as the manager of government affairs for the Direct 
Marketing Association, where his primary responsibility was 
supporting the advocacy goals of the direct marketing 
community. Mr. Donovan holds a bachelor's degree from 
Providence College where he studied English and political 
science. Welcome, Mr. Donovan.
    Our second witness hails from Postville, Iowa, and will be 
introduced by the gentlelady Ms. Finkenauer from Iowa, who is 
the Chairwoman on the Subcommittee on Rural Development, 
Agriculture, Trade, and Entrepreneurship. I would now like to 
yield to Ms. Finkenauer to introduce our second witness.
    Ms. FINKENAUER. Well, thank you, Mr. Chair. And thank you 
for inviting me to be a part of your Subcommittee today. This 
is actually not one of the ones I sit on and so it means a lot 
to me to get to be here and introduce one of my constituents 
from Iowa's First Congressional District.
    I am very proud to introduce Dan Stelpflug, who is on the 
front lines working to provide high-speed broadband service to 
families and small businesses in Iowa. Mr. Stelpflug is the 
director of operations, engineering, and technology at 
Allamakee Clayton Electric Cooperative. Mr. Stelpflug manages 
the AC Skyways Broadband Division, responsible for deployment 
of new technologies and the overall strategic vision of the 
department.
    Unfortunately, many rural communities lack high-speed 
broadband because of the cost to carriers to provide in these 
areas. In turn, this hits small businesses that need high-speed 
broadband to identify new customers, sell their products, and 
create jobs in our communities, which are very important, 
especially in our rural areas.
    Federal grant and loan programs are designed to deploy 
broadband to underserved areas. To target the assistance to 
where it is needed, though, we do need accurate maps that are 
drawn from granular data and vetted by robust processes. I look 
forward to hearing Mr. Stelpflug's perspective on this issue, 
which is so important, as I said, to our small businesses back 
home in Northeast Iowa.
    Mr. Stelpflug, thank you for coming all this way to 
Washington and making sure that your voice is heard.
    And I just want to also take the moment to say thank you to 
all of our witnesses here today. Having you guys on the record 
telling Washington why this matters, it means so much and helps 
us do our job in a better way. Thank you, guys.
    And with that, I yield back.
    Chairman GOLDEN. Thank you very much. And our third witness 
is Ms. Beth Osler, who hails from Unity, Maine, in my home 
district. It is Waldo County. Ms. Osler is the director of 
customer and industry relations at UniTel, which serves 
approximately 5,000 homes in rural Maine. She was born and 
raised in Bangor, Maine, and later attended Bates College. We 
are both alums of Bates College.
    She was first employed as a cordboard operator for New 
England Telephone Company. Over the next 50 years she has held 
positions of increasing responsibility in operator services, 
customer service, regulatory affairs, and legislative affairs 
for both large and small telecommunications companies in Maine 
and in New Hampshire. Welcome, Ms. Osler. It is a pleasure to 
have you here.
    And I now would like to yield to our Ranking Member, Mr. 
Stauber, to introduce our final witness.
    Mr. STAUBER. Thank you very much, Mr. Chair. And our final 
witness today is Jason Hendricks, the chief regulatory officer 
for the Range Companies. He serves on the board of directors 
for WTA, Advocates for Rural Broadband, for which he is 
testifying on behalf of today, and the Colorado 
Telecommunications Association. He is also the past president 
of the Wyoming Telecommunications Association. And Jason has 
been in the telecommunications industry for 23 years. He began 
his career at the Illinois Commerce Commission, then consulted 
for JVNW Consulting before joining the Range Companies.
    Jason has a master of arts degree in political studies from 
the University of Illinois Springfield, a master of science 
degree in economics from the University of Wyoming, and a 
bachelor of science degree in economics from Penn State. Thank 
you for being with us today.
    Mr. Chair, I yield back.
    Chairman GOLDEN. Thank you very much. We are now going to 
go ahead and move to opening testimony from our panel. We are 
going to go out of order very quickly because Congresswoman 
Finkenauer has to get over to a Transportation Committee 
hearing, but wants to hear the opening remarks for Mr. 
Stelpflug. So, sir, we will now recognize you for 5 minutes.

STATEMENTS OF DAN STELPFLUG, DIRECTOR, OPERATIONS, ENGINEERING 
   & TECHNOLOGY, ALLAMAKEE CLAYTON ELECTRIC COOPERATIVE; TIM 
     DONOVAN, SENIOR VICE PRESIDENT, LEGISLATIVE AFFAIRS, 
    COMPETITIVE CARRIERS ASSOCIATION; BETH OSLER, DIRECTOR, 
CUSTOMER AND INDUSTRY RELATIONS, UNITEL, INC.; JASON HENDRICKS, 
            CHIEF REGULATORY OFFICER,RANGE COMPANIES

                   STATEMENT OF DAN STELPFLUG

    Mr. STELPFLUG. Thank you, Mr. Chairman, Ranking Member 
Stauber, and members of the Committee for opportunity to be 
here to share our small business perspective on the importance 
of more granular and accurate broadband mapping.
    My name is Dan Stelpflug and I am the director of 
operations, engineering, and technology at Allamakee Clayton 
Electric Cooperative in Postville, Iowa. We provide electricity 
to less than 10,000 rural consumers across 8 Northeast Iowa 
counties near the Wisconsin and Minnesota border. The ACEC is 
part of a broader electric cooperative industry represented by 
the National Rural Electric Cooperative Association that serves 
1 in 8 Americans and covers 56 percent of the U.S. landmass. In 
part because cooperatives are led by and belong to the 
communities they serve, there is an increasing number of 
electric cooperatives studying whether they should be part of 
the solution to close the digital divide. More than 100 
electric cooperatives, including my own, already are working 
toward meaningful and diverse solutions to bridge the digital 
divide and jumpstart local economies.
    In addition to my operations and engineering 
responsibilities at ACEC, I oversee AC Skyways, the broadband 
division of our cooperative. We have been delivering broadband 
to Northeast Iowa residents since 2014 using a combination of 
fiber optic lines and fixed wireless technologies, a ``fiber to 
the section, wireless to the home'' business model. The primary 
impetus for ACEC's investment in its broadband network was and 
continues to be to serve members who lack affordable options to 
access internet with at least 25 megabit per second download 
speeds.
    My cooperative's experience with shortcomings and 
inaccuracies of existing federally available broadband mapping 
data is from the perspective of a broadband provider seeking 
opportunities for Federal funding and as a provider working to 
meeting Federal Communications Commission's requirements as an 
FCC Rural Broadband Experiment grant recipient.
    Our first experience with inaccurate data occurred while 
working to comply with Federal grant guidelines. In 2014, we 
received a grant from the FCC's RBE Program. The grant was 
awarded for us to reach 665 potential customers in 209 census 
blocks with broadband. The potential customer total was 
identified by FCC data that was assumed to be correct. While 
preparing progress reports required by the FCC, we discovered a 
discrepancy in the number of potential customers. Instead of 
665 locations as indicated by FCC data, we counted 510 or 23 
percent less than anticipated. My written testimony outlines 
the process we undertook and includes graphics demonstrating 
differences between FCC-provided data and what we discovered to 
be true on the ground in our service area.
    In addition, it is important to address concerns with the 
FCC's Form 477. We believe the FCC's existing Form 477 data 
overstates the availability of broadband, particularly in rural 
America. The concept that a census block should be deemed 
served in terms of fixed broadband service if one location in a 
census block is served is just no longer viable.
    Another frustrating aspect of the Form 477 data is the 
reporting requirement allowing carriers to report advertised 
maximum speeds in a census block even if they can only provide 
that high speed to one customer.
    While the devil is always in the details, there are steps 
the FCC can take to vastly improve broadband data availability. 
First, more granular data is needed to eliminate the false 
positives in classifying census blocks as served or unserved. 
Second, the FCC needs a system of checks and balances to help 
ensure providers are reporting actual speeds that are reliably 
available to consumers. Lastly, Federal agencies must undertake 
increased data verification efforts, including the 
implementation of a challenge process.
    We appreciate members of Congress working to solve these 
issues through legislation such as the Broadband Data 
Improvement Act of 2019 by Representatives O'Halleran, 
McMorris-Rodgers, Butterfield, Kuster, and McKinley.
    Electric cooperatives know how challenging it is to build 
infrastructure throughout rural America to provide a service 
that is integral in the prosperity and future of our 
communities. More accurate mapping showing broadband 
availability are a key part of reaching all rural Americans 
with high-speed broadband service. This will enable us to 
clarify existing gaps and coverage, and harmonize the diverse 
solutions that will be required to help rural Americans keep 
pace with their urban counterparts. We look forward to a 
continuing partnership with Congress to work toward that goal.
    Thank you again for the opportunity to testify here today. 
I am happy to answer any of your questions.
    Chairman GOLDEN. Thank you, sir. We will now go back in 
order and recognize Mr. Donovan for 5 minutes. Thank you.

                    STATEMENT OF TIM DONOVAN

    Mr. DONOVAN. Chairman Golden, Ranking Member Stauber, and 
members of the Subcommittee, thank you for the opportunity to 
testify about the need to produce more reliable coverage maps.
    Mr. Chairman, you are correct when you recently noted that 
this is a gravely important issue that creates barriers that 
prevent rural small businesses from reaching their full 
potential. These maps have been called many things. Useful is 
not one of them. We must have reliable broadband coverage maps 
to meet the challenge of closing the digital divide.
    CCA is the Nation's leading association for competitive 
wireless providers, representing nearly 100 carrier members as 
well as vendor and suppliers. Through the recent FCC Mobility 
Fund II challenge process, CCA members have firsthand 
experience and motivation to fix the mapping process and 
continue deploying mobile broadband services.
    It is an exciting time in our industry as mobile 
connections power new technologies and improve the quality of 
life across the United States. 5G will supercharge these 
services and enable new services, some not yet even imagined. 
Current and future technologies depend on robust wireless 
networks, and without the right policies, rural America will be 
left behind.
    Today's hearing is not only important, it is also timely. 
Chairman Pai recently announced that this August the FCC will 
vote on a report and order on updating broadband maps. I hope 
today's hearing can help inform that process. We cannot close 
the digital divide if we do not know the country's existing 
coverage gaps.
    I am pleased to join the Committee to continue the 
discussion on how to produce reliable maps and to support the 
policies small businesses rely on. You know that the 
representation of coverage in the current maps in your 
districts is overstated and, in some cases, substantially so. 
The FCC and agencies across the government must work in 
coordination with industry to produce the most reliable 
coverage maps possible. The stakes are too high for anything 
less than our best efforts.
    I would like to take a minute to talk about how we got 
here, as well as offer solutions for a path forward. 
Historically, the FCC's Form 477 has served as its tool to 
determine the availability of services and to guide 
policymaking. However, current policies are not adequate to 
allocate USF support. As recently as December, the FCC used 
Form 477 data to report that ``approximately 100 percent of the 
American population lives in geographical areas covered by 
mobile LTE.'' This is wrong. If this were accurate, we would 
not be having this hearing today.
    Mobility Fund Phase II will provide $4.53 billion over the 
next 10 years to preserve and expand 4G services. The FCC 
decided to undertake a new, one-time data collection to 
determine areas initially eligible for this support, 
acknowledging that using the data to determine eligible areas 
would prolong any challenge process.
    To the FCC's credit, this data collection included specific 
parameters. While taking steps to standardize the data should 
be commended, we now know that the parameters selected did not 
sufficiently improve the accuracy or credibility of the 
resulting coverage maps, which continue to dramatically 
overstate coverage, especially in rural areas. This is a 
significant problem as the challenge process proved to be 
overly burdensome, yet insufficient to correct flaws.
    The problem is particularly acute for small entities that 
must marshal resources or reassign staff to conduct challenges 
rather than focus on deployment. The takeaways for this process 
for challenges were twofold: one, the process was so 
complicated and expensive that challengers large and small were 
never able to challenge all the areas they wanted to; and two, 
absent a successful challenge, too many unserved areas will 
remain ineligible for support.
    Mr. Chairman, in Maine specifically, one CCA member 
collected millions of data points, but could not successfully 
challenge 55 percent of the area they would have challenged 
because of a lack of roads and resources. Your state was not 
alone.
    Despite these problems, entities last year provided the FCC 
with over 20 million speed tests to challenge claimed coverage. 
After a preliminary review, the FCC launched an investigation 
into the data while suspending the next step of the challenge 
process.
    The investigation's findings can help improve future data 
collections, but we already know that more robust 
standardization is necessary. Any model will have shortcomings, 
but to produce maps that are more reliable, the FCC must ask 
carriers to provide a detailed Radio Frequency Link Budget 
submission that includes the most relevant data, including 
signal strength standardization, increased cell edge 
probability, increased cell loading to more accurately reflect 
how mobile networks are used in rural areas, and additional 
clutter factors. Further standardizing these bottom line 
factors will produce substantially more reliable maps and 
reduce the need to expend additional resources to correct data 
collection flaws.
    In conclusion, connectivity for millions of Americans 
living in rural areas and the small businesses that rely on 
those connections depend on policy decisions that are based on 
reliable, real-world data.
    Thank you for your ongoing leadership on this critical 
issue and for holding today's important hearing. I welcome any 
questions you may have.
    Chairman GOLDEN. Thank you, Mr. Donovan. Ms. Osler, it is 
your turn for 5 minutes.

                    STATEMENT OF BETH OSLER

    Ms. OSLER. Thank you, Chairman Golden, Ranking Member 
Stauber, members of the Committee. My name is Beth Osler and I 
work for UniTel, Incorporated, a very small telecommunications 
company in Unity, Maine, somewhere between Freedom and Hope.
    I am here today representing not only UniTel, but also 
NTCA, the rural broadband alliance of which we are a member, 
and they have over 850 members who are small companies 
throughout the United States. So I am very proud to be able to 
represent them today.
    One of the good things we can say today is that there is no 
argument about whether there is a problem or not. And we all 
know that the problem exists, that it is particularly difficult 
in rural areas, and even from other remarks this morning we all 
know why it is happening. You cannot make a business case to 
invest in an area where there aren't enough potential customers 
for you ever to make a return on your investment. And so what 
we do is we fall back on the ability, hopefully, of finding 
private and public partnerships where we can all work together 
to come up with a business case that actually works. And that 
has happened several times in Maine and we want it to happen a 
lot more.
    Funds are limited, so you have potentially funds at the 
local level, although I would say that is where they are most 
limited; at the state level, and we have been working hard to 
try to make those funds available through our agency Connect 
Maine; and, as you know, at the Federal level. And we all know, 
too, I believe, that even then, the amounts of money that could 
be used for this purpose do not completely make up the need.
    So what happens with maps? Everybody I think tries to do 
their very best to provide accurate data, but because the data 
is at such a high level at the census block level, the ability 
to actually determine where there are unserved and underserved 
areas is often impossible. And what we do is we end up with 
false positives and false negatives where the FCC says there is 
service and we know there isn't service; where the FCC says 
there isn't service when we know there is service. And as you 
can imagine, that makes the distribution of funds pretty 
difficult.
    So we need to make sure that these limited funds are used 
in the most efficient and effective way. So we have kind of 
three things we would like to share and I don't think they will 
probably be much different from any of the other witnesses.
    One, we definitely need more granularity at the map level. 
We are perfectly interested and want to help to make that 
possible from our perspective.
    There have to be reporting standards. If people don't know 
exactly how they are supposed to report or it is unclear and 
they misunderstand what they are supposed to do, that is going 
to add to your errors.
    And obviously, there needs to be a challenge of validation 
process, which is not working now. So, for example, we had six 
census blocks where the FCC said there was broadband service. 
We said, no, there is not. But we were ineligible for any 
support because they claimed that they were and we couldn't 
challenge that.
    So those three areas of consideration about mapping are 
probably where you will get the biggest bang for your buck, so 
to speak. So we look forward to working with you and anyone 
else that we can work with to make sure that happens. We want 
our customers to have good service.
    Thank you for letting me testify today.
    Chairman GOLDEN. Of course, ma'am. Thank you so much. And 
finally, Mr. Hendricks, you are recognized for 5 minutes.

                  STATEMENT OF JASON HENDRICKS

    Mr. HENDRICKS. Good morning, Chairman Golden, Ranking 
Member Stauber, and members of the Committee. My name is Jason 
Hendricks. I am providing testimony today on behalf of the 
Range Companies and WTA. It is a pleasure and an honor to 
testify before you this morning.
    The Range Companies are comprised of the parent company, 
Range Telephone Cooperative, and its subsidiaries, RT 
Communications, Dubois Telephone Exchange, and Advanced 
Communications Technology. The four companies provide broadband 
service in rural areas of Montana, Wyoming, Colorado, and South 
Dakota. Our combined serving area is approximately 30,000 
square miles with a customer density of .54 customers per 
square mile.
    Despite the low density and high cost challenges of our 
serving areas, we provide very high-speed internet service, 
including fiber-to-the-premise service, in many of our 
communities. But like most rural providers we have some areas 
that are cost-prohibitive to serve with speeds comparable to 
those found in more densely populated areas. It is these areas 
for which the accuracy of the broadband mapping is most 
important and for which the current FCC mapping mechanism is 
the least accurate. My testimony focuses on goals to improve 
broadband mapping without being overly burdensome to small 
providers with limited resources.
    The current broadband map is derived from data reported by 
broadband providers twice a year on Form 477. Problems with the 
current broadband map include the use of advertised speeds 
rather than actual speeds; lack of granularity through the 
reliance on census block, which can be very large in rural 
areas; overstatement of availability when entire census blocks 
can be shown as served if only a subset of it is actually 
served; understatement of availability due to a delay from when 
information is provided to when it is shown on the map; the use 
of inaccurate customer location data; and regulatory burdens 
associated with data collection.
    Between our four companies we are required to provide 
broadband data on over 7,000 census blocks. Yet census blocks 
can be upwards of hundreds of square miles in size and are 
often ill-fitted to population clusters. For example, we are 
required to provide data on a census block that is 366 square 
miles with 19 locations.
    I will provide you with an example of the problems that can 
occur when census blocks are used to determine broadband 
availability. RT Communications serves the town of Hulett, 
Wyoming, which is near the Nation's first national monument, 
Devils Tower. RT provides 100 megabit service in town, but 
there are locations outside of town that we haven't been able 
to serve with speeds of 25 megabits per second or more due to 
the high construction costs. We have looked at pursuing grants 
to defray some of the construction cost to serve those 
locations. However, the large census block is considered served 
because it includes a small portion of a well-served town. Were 
a better mapping system used, the outlying locations could be 
properly identified as unserved so that the funding could be 
targeted to the locations in need. Similar examples can be 
found throughout our serving areas.
    The Range Companies are supportive of efforts to achieve 
more granularity in broadband mapping to ensure that broadband 
funding goes to areas most in need. We offer four goals for a 
new broadband mapping system.
    First, we request that the reporting requirements not be 
overly burdensome for small providers. Second, we request that 
the mapping methodology be used for all state and Federal 
funding decisions so that providers are not subjected to 
reporting requirements that differ across jurisdictions. Third, 
the process used to verify the accuracy of the data should be 
meaningful and minimally burdensome to small providers. Fourth, 
a streamlined challenge process should be used to ensure 
broadband availability is not overstated and that support goes 
to areas of need.
    Two mapping proposals that are gaining traction involve the 
use of shapefiles and location fabrics. We believe these 
proposals need not be mutually exclusive and both can be 
adopted over time.
    In the near term, we are supportive of the shapefile 
proposal. It can be easily accommodated with our existing 
mapping capabilities. It can also be more representative of 
network architecture, community boundaries, and the locations 
of outlying customers and rights-of-ways. And it can be 
overlaid on multiple types of premise location platforms.
    We are cautiously optimistic about the location fabric 
proposal. We are fully aware of the errors contained in the 
current location databases and we are hopeful that a more 
accurate database can be developed.
    We are looking forward to results of the pilot project on 
the proposal. We do believe, however, that the shapefile 
reporting process can be created and used prior to the 
development of a customer location fabric.
    With respect to the FCC's order that is due in August, I 
will be working with WTA to provide comments to the FCC in 
advance of the order's release to be consistent with the 
positions I provided in my testimony today.
    I thank you for the opportunity to speak with you.
    Chairman GOLDEN. Thank you very much, Mr. Hendricks. Very 
quickly, before we move to questions from members, I would like 
to submit this letter from USTelecom, the broadband 
association, for the record. Without objection, so ordered.
    At this point we are going to go ahead and move to member 
questions. And I am going to start by recognizing myself for 5 
minutes.
    Mr. Hendricks, I had some good follow-up for you, but I am 
going to hold off and maybe we will come back to you later 
because I know that we have got two members up here from 
Minnesota who I am sure will want to have some back-and-forth, 
including Mr. Stauber, who should be back very quickly.
    First, Ms. Osler, I thought I would ask you it seems like 
you have spent a lot of time working or trying to work at the 
local, state, and Federal level and pulling different resources 
together. And I have seen that repeatedly across the state. So 
I wanted to ask you, you know that last year the FCC 
decommissioned the National Broadband Map and came out with the 
Fixed Broadband Deployment Map, which uses the FCC Form 477 
submissions. It has been criticized as overstating coverage, as 
you have heard and I think agreed yourself.
    Earlier this year, NTIA announced a pilot program among 
eight states to include Maine and Minnesota to collect 
broadband to update the National Broadband Map. What role do 
you think states can play in helping the Federal Government get 
more accurate data working at the local level and state level? 
And what kinds of barriers are there to doing it? Do you need 
resources or help?
    Ms. OSLER. Thank you, Mr. Golden. I think the closer to the 
ground that you get, the more accurate your data will be. And 
so I think it can only be better if the local/state folks do 
their part to help make the Federal data accurate.
    I think that it is likely that there will always be errors. 
We are human and everyone is, I hope, so there are always going 
to be errors. And that is why we should also have a consistent 
way of letting people know when the data is inaccurate and a 
way for it to be accepted and verified and made appropriate.
    We all look forward in Maine to working with whoever can 
help solve this problem because it is affecting us and will 
continue to affect us more and more as we go forward.
    Chairman GOLDEN. I appreciate that very much. I think it 
strikes both the Ranking Member and I that there are a lot of 
different programs that Congress has put forward, you know, 
whether it be through USDA or other areas, things are rather 
spread out. But you can create these great programs, but if you 
are creating barriers to accessing them in terms of these 
mapping requirements that hold people back, first you have got 
limited access to those resources and, secondly, this issue of 
being able to challenge that information with that local data 
that you are collecting seems to be a real significant problem 
and one that I hope we can work on.
    It is upsetting to hear that there is not a robust back-
and-forth where you can go to the Federal Government to feed 
the information that you are working hard to gather on behalf 
of your people.
    Ms. OSLER. Yes, and the more inaccurate the maps are, the 
more frustrating it must have been for the FCC to try to come 
up with a way to fix it. I think they got overwhelmed probably. 
But there has got to be a better way to do it and I think that 
part of it is getting down into the data further, so that those 
kind of overriding errors don't--they spread essentially 
because if you have one error that shows someone in a census 
block when they are not there, then not only is that location 
wrong, but everything in the whole census block is wrong.
    Chairman GOLDEN. Thank you for that testimony. I appreciate 
it.
    Real quickly, I will throw this one over to you, Mr. 
Donovan, and anyone can jump in. We only have a minute, though. 
But this issue of advertisement speeds and just one person 
being able to get a speed and all of a sudden you can 
advertise. You know, you have got this wonderful coverage. It 
reminds of truth in advertising type issues. Do you think there 
is any work that needs to be done to try and make sure that 
companies are advertising accurately what you can expect?
    Mr. DONOVAN. Sure, I think it is both what you can expect 
as well as where you can expect it, especially when you are 
talking about mobile service. People expect your cellphone to 
work for you. That is why you buy a mobile device. And so 
getting into some of this fundamental data, as my colleagues on 
the panel were talking about, as a starting point is necessary 
before you can layer anything else on top of that.
    Chairman GOLDEN. Thank you. I am just about out of time, 
but I would say quickly we heard this in our field hearing in 
Minnesota, and we are doing another one up in Maine in the 
fall, but, I mean, a big manufacturing company talking about 
how the speed advertised would be sufficient for his business 
and perhaps the speeds are there when there is low usage late 
at night, but when it is time to do business and people are at 
work the speeds just aren't there as advertised so it is a 
significant problem.
    And I did want to point out before I cut myself off and 
hand it over to the Ranking Member, for those of you that are 
in the crowd, in the audience, or listening in back home, Ms. 
Osler from Maine, if you are looking for a wonderful place, you 
heard her talking about Waldo County, Maine, with such friendly 
town names as places like Freedom, Hope, Unity, and Friendship. 
It is actually Waldo and Knox County, but just an amazing, 
wonderful part of the country and the names of the towns speak 
to it.
    So with that, I am out of time. Thank you, ma'am, for 
joining us. And I will now recognize the Ranking Member.
    Mr. STAUBER. Thank you, Mr. Chair. Waldo County sounds like 
the entire state of Minnesota, thank you.
    So, Chairman Golden, I want to just publicly thank you for 
coming to our state, my state of Minnesota to have that 
hearing. That generated a lot of interest. And as you know, one 
of the questions I asked to the business owners is had he known 
when he started the business would he locate in that same spot 
with the lack of internet access? He said absolutely not, and 
that is rural Minnesota.
    And I think the four of you, I want to thank the four of 
you here because you understand that rural America matters. And 
that is a district that I am fortunate to represent and your 
testimony is congruent to that thinking. And so the expansion 
of broadband, the deployment in rural America, we bring our 
businesses. And I feel it is a choice of quality of life and 
just the opportunity to be able to have that small business 
anywhere in this country you want is so important.
    So my first question will be to Mr. Donovan. You know, 
couldn't we get better maps by leveraging government to help 
collect more and better data? For instance, there are Federal 
employees that roam all over the country, probably all of whom 
carry a mobile phone. Could an app or a program run an 
automated coverage scan while carrying out their regular 
duties? And would that help gather a deeper understanding of 
what coverage looks like in rural America?
    Mr. DONOVAN. Thank you for the question. So, yes, you know, 
Federal employees could collect this data and that would be 
particularly useful in verifying where coverage does and 
doesn't exist.
    To the question before on, you know, the speeds available, 
too, that also speaks to one factor that is measured in this 
called the loading factor, where if people are using the 
network heavily, you are not going to get the same speeds. And 
so, as we are building these maps it is important that the FCC 
sets that right loading factor to actually reflect how people 
are using these networks in rural areas.
    While it is useful for verifying based on the employee's 
usage, I still think we need to start with more granular data 
coming in from the carriers. You can then push some of the 
burden. You know, part of the problem in the challenge process 
was the burden was all put on small entities, on state and 
local governments. If you start with better data, you can 
verify it through programs like what you discussed with Federal 
employees and shift that burden away from state and local 
government or private entities to prove the negative where they 
know that there isn't service.
    Mr. STAUBER. Thank you very much. Ms. Osler, our Committee 
consistently hears from small entities that the Federal 
Government should not adopt a ``one size fits all'' data 
collection to mapping purposes. Can improving the broadband map 
be done in such a way that the smaller telecommunications have 
an easier time of it when compared to the larger ones?
    Ms. OSLER. I think it is perfectly fine if there are 
different ways of gathering the data. My company has 25 
employees. We know where every single building is in our 
property. We would love to just be able to tell people that and 
I think a lot of small companies could do that, too.
    The issue to me, though, is that over and over again when 
there is an error, it would be so easy to fix. And so the 
validation, the ability to challenge what seems like more of a 
negative word, but the opportunity to work together to make 
sure it is correct is----
    Mr. STAUBER. And I like that word, ``the opportunity''----
    Ms. OSLER. Right.
    Mr. STAUBER.--to be able to, you know, fix or bring data 
that challenges what you have been given or what you have shown 
by the bigger telecommunications company.
    So to the four witnesses, this is a map of Minnesota that 
says that a great part of Minnesota is covered. This map to me 
is not accurate. There are places that say it is covered, I 
know, I have been there, it is not covered. And so I think the 
accuracy is so important.
    And that is why you bring from your business experience, 
that rural mentality, you bring part of the equation and part 
of the answer, and I think a big part of the answer. Because we 
know that--I am not concerned so much in the metro or urban 
areas in the big places of Minneapolis or St. Paul or Rochester 
maybe or even in the center of Duluth, which is the biggest 
city in District Eight of Minnesota. The concern is you have 
the ability to help augment the map when it is wrong and bring 
some solutions to us.
    And before my time runs out, I just want to tell you how 
much I appreciate you being here and that it matters. Your 
experience, you have just as much knowledge and experience as 
some of the bigger companies and we need that. And our goal is 
to invite you into that process. As you said, Ms. Osler, the 
accuracy matters.
    And my time is running out. I have run over. Thank you, Mr. 
Chair, and I yield back.
    Chairman GOLDEN. The gentleman yields back. And we will now 
recognize Representative Abby Finkenauer, the Chairwoman of the 
Subcommittee on Rural Development, Agriculture, Trade, and 
Entrepreneurship.
    Ms. FINKENAUER. Well, hello there. Thank you again, Mr. 
Chairman, for letting me to sit in on this Subcommittee today 
and thanks again for everybody being here.
    Mr. Stelpflug, thank you again for traveling all the way 
from Iowa's First District. And, you know, I know in your 
testimony you compare the digital divide to the struggle that 
rural America faced nearly 80 years ago when the U.S. began 
deploying electricity. As a person with many years of 
experience in the electric industry, what were your experiences 
in developing networks in remote areas? And what are some of 
the lessons that we can learn from that process you want to 
make sure we hear loud and clear?
    Mr. STELPFLUG. Some of the areas, when we started building 
our broadband network, you know, I am from an REC and we built 
the electric network that covers 56 percent of the landmass of 
the United States. We used a lot of community development folks 
to help us out to get things started. We have groups of people 
that come together that say if you can get broadband to our 
area, we will serve you or we will provide the customers. So, 
you know, they are giving us some solutions to some problems 
when we question how many customers we can actually get.
    So we are taking a similar approach to the way the 
broadband is expanded out. And it is an expensive venture and 
we have to do it in a prudent manner; sometimes we just can't 
afford to do it. So we rely on a lot of these communities to 
help us out with that kind of thing.
    Ms. FINKENAUER. Yeah.
    Mr. STELPFLUG. Everyone is kind of coming together as a 
group to work toward a common goal.
    We have a small town in Allamakee County that is a county 
seat that doesn't have adequate service and, you know, it is a 
town of 3,000 people. The city contacted us, their economic 
development people, asking if we could expand service to their 
area and they volunteered to send out surveys and that type of 
thing to find out what coverage would be to see if it would be 
a viable option for us. So that is kind of an example of the 
way the communities are asking us to help them out.
    Ms. FINKENAUER. Great.
    Mr. STELPFLUG. We are taking that same approach as we did 
with the electric alliance years ago.
    Ms. FINKENAUER. Okay, thank you. And wondering, too, if you 
could make sure, again, that Washington here has, you know, a 
little bit different perspective. I always take every 
opportunity I get to remind this Committee that our farmers are 
also small businesses. And as much as, obviously, we need 
broadband and rural broadband to attract small businesses to 
our Main Streets in rural Iowa and rural areas across the 
country, our farmers also rely on this because of PrecisionAg 
and how technologies are changing.
    So I am wondering if you would be able to touch on that, 
too, given the rural nature of Allamakee and also Clayton 
County and how important that might be.
    Mr. STELPFLUG. Yes, it is very important to the 
agricultural community. Everything from the dairy farmers to 
the crop farmers that are looking at real-time markets and are 
making plans as far as their budgets are concerned, and they 
need to have good internet access to do it. We have a lot of 
areas that it is just not available. They are in some pockets 
that are really not very populated and it is hard to justify 
extending to some of these areas. But these farmers are really 
dependent on the internet and they are kind of falling behind 
just because they don't have access to these markets.
    We hear of people that go to local libraries to do work on 
some of this stuff to figure out what they are going to to. You 
know, they are in a tough spot and to stay competitive with 
everyone else in the country they need access to broadband.
    Ms. FINKENAUER. Absolutely. Thank you, Mr. Stelpflug.
    And I have just a minute left here, so this is just to the 
whole panel. Obviously, have increasingly seen how small firms 
benefit from broadband access. And it is actually hard to 
imagine how any small business would survive without the 
internet, including our farmers.
    To the panel, you know, how can we encourage more 
businesses to adopt the technology and take advantage of the 
innovations brought by faster broadband? If anybody want to 
touch on that. Ms. Osler?
    Ms. OSLER. Yes, thank you.
    Ms. FINKENAUER. Yeah.
    Ms. OSLER. I think one of the things people don't talk bout 
a lot, and I know we are talking about mapping right now, but 
is that there are a great many small businesses who don't 
understand what the use of the internet could do for them. We 
did a survey a few years ago in our territory and 40 percent of 
the small businesses, a lot of them at-home businesses, did not 
even have a website.
    Ms. FINKENAUER. Oh, my goodness. Wow.
    Ms. OSLER. So I think there is a wonderful opportunity and 
we at UniTel have actually been doing this of providing digital 
literacy training, not only what you want for service, but how 
to use it. I mean, we had people in those classes that we had 
to teach how to turn on the computer and then we had other 
people who wanted to learn how to use QuickBooks so that they 
could run their business from home. This is a wonderful 
opportunity that we are looking forward to taking advantage of.
    Ms. FINKENAUER. Well, thank you so much, Ms. Osler. And I 
know my time is about to expire, so I just want to say thank 
you again to all the folks here.
    And thank you, Mr. Chair, again for letting me sit in on 
this meeting.
    Chairman GOLDEN. Happy to have you join. Thanks for coming.
    We now recognize Representative Jim Hagedorn from Minnesota 
One.
    Mr. HAGEDORN. Mr. Chairman, thank you for holding this 
hearing. I appreciate that you and Ranking Republican Stauber 
made it up to Minnesota. That was a good hearing. And I think 
these continued hearings on the subject can be very important 
and I pledge my support to all of you.
    I think everybody in the room is on the same team. We want 
this to work. We want to help out the folks in rural America 
and make sure that the people that happen to live outside of 
big cities have the same opportunities, as Congressman Stauber 
said, as the folks in the big cities. And it is a basic 
infrastructure issue.
    I mean, let us face it, I agree with my colleague from 
Iowa, this is a lot like the REAs and delivering that last mile 
or two of electricity to the farms out there to make sure 
everybody was up to speed on that, roads and bridges, sewers, 
water, whatever it is. And now it is broadband and this is just 
a quality of life issue and it is something that we have to 
keep pushing and make sure it gets done as it is very 
critically important for our folks out there in our counties.
    So, you know, when we were at that hearing up in Minnesota, 
Congressman Stauber's constituent, a small business guy, and he 
is talking about he is right, you know, if you had to look back 
and do it all over again, he would probably wouldn't have even 
tried. And there is a lot of opportunity costs out there that 
we are missing. But there are businesses in rural communities 
right now that would like to expand and they are like, eh, you 
know, what is the cost of labor? What is the cost of this? Do I 
even have broadband service to the point where I could expand 
my operations?
    There are probably bigger sized businesses that would like 
to move into parts of Southern Minnesota and they are like, you 
know, not going to fiddle with it. We are just going to go 
where it is taken care of. So whatever we can do to move this 
along, like I said, you have my support.
    I agree with Pete, looking at this map of the First 
District of Minnesota, and it says here 98 percent is covered. 
But then you look at what real speeds are, maybe only a third, 
and you can't do business that way.
    And then when you get down and you are looking in the 
future and you have a lot of folks in rural areas, veterans, 
others, elderly people, and they want to do telemedicine, so 
maybe they don't have to travel 50 or 100 miles or they can get 
care right away. It could be also people with mental health 
care and things of that nature. Doctors need to be able to see 
the charts, you need to be passing things back and forth, you 
need to make sure that it all makes sense.
    And for our farmers, you know, a lot of livestock out there 
fed every day with mechanizations all run by the internet. That 
goes haywire, it doesn't work, that is rough on the animals, 
rough on the operations. And so we got to get it right.
    Mr. Hendricks, I liked what you said about making sure that 
whatever they do in the future that we don't have onerous 
regulations and things that the burden would be borne too much 
by small business, by the smaller telecommunications companies, 
and others that are delivering this. Do you think it is pretty 
important that when we have businesses in these areas that they 
are the ones that can do the service, that they are the ones 
that are going to be in those communities long term? Or what 
are your thoughts in general on making sure that we protect the 
small businesses that are doing this work?
    Mr. HENDRICKS. Thank you for the question, Congressman. And 
just a clarification that your question on small businesses is 
the small providers that are doing the work in the areas? Is 
that correct?
    Mr. HAGEDORN. Yeah.
    Mr. HENDRICKS. Yes, I think that is very important. I mean, 
we care about the communities we serve. We live in the 
communities. You know, it is not just a profit maximization 
thing. It is a serving the community thing.
    And for us, if we can have a methodology to provide 
broadband mapping that fits in with our current systems, which 
I think the shapefile proposal does, I think that that makes 
sense. I think that you will end up solving a lot of the issues 
that you guys have been talking about as far as knowing 
individual areas.
    You will be able to put a shapefile, for example, around a 
town, that area is well served. Maybe a community outside of 
town you put a shapefile over that, or a polygon I should say, 
and maybe that is at a lower speed. And then the more remote 
areas, they can be signified with lines and dots. And I think 
that fits in well with capabilities that we have for a small 
business.
    Mr. HAGEDORN. Might know the area and customers better. 
Might have more of an interest in making sure that it gets done 
right and that the people are serviced long into the future 
because they are probably going to be doing business there for 
a long time.
    Mr. Donovan, real quick, when they figure out these speeds 
and they say potentially 25, 3, whatever, is that just per 
person or is that per every 100 users or how do they do it?
    Mr. DONOVAN. So for wireless service it is based on a 
model. You put in these different factors and then this is the 
minimum speeds you get. And the factors that you use make a 
real-world difference.
    So as a quick data point on that, if you will allow me a 
few more moments, in the Mobility Fund data collection they 
required wireless carriers to report where 80 percent of the 
cell edge. So where the distance is where you have an 80 
percent likelihood of getting the speeds. We now know that that 
is too low. So carriers build to at least 90 percent cell edge, 
public safety is 95 percent. That 10 percent difference turns 
out into a 27 percent difference in the circumference of the 
cell service and a 60 percent difference of the area covered. 
So that 10 percent ends up being a huge area that claims that 
there is service where it actually is not up to those minimum 
speeds.
    Mr. HAGEDORN. So they should upgrade some of those 
standards?
    Mr. DONOVAN. Yes, sir.
    Mr. HAGEDORN. Thank you.
    Chairman GOLDEN. Thank you very much. We now recognize 
Representative Marc Veasey from Texas.
    Mr. VEASEY. Thank you very much, Mr. Chairman. Good 
morning. I would like to thank the witnesses for being here 
today to discuss the need for better and more comprehensive 
mapping of the current availability of broadband across the 
USA. And as someone that has heard a lot about this issue, and, 
as a matter of fact, I signed onto a letter led by my 
colleagues on another Committee that I serve on that question 
the data relied upon by the FCC to determine where and how 
extensive broadband deployment is across the U.S.
    Coming from the state of Texas, where there is more rural 
area than urban area, it is important to ensure that rural 
residents are able to participate in and benefit from our 
increasingly technology-reliant society. And I represent all 
urban Texas, but, again, in order for our state to continue to 
grow and prosper this is a hugely important issue.
    I am old enough to remember going to my cousin's 
grandparents' house, out in what we call the country, out in 
Palestine, Texas, and where they still didn't even have indoor 
plumbing back in the late 1970s and 1980s. And people don't 
realize how long it takes for rural America to oftentimes get 
connected to the rest of what is going on in the world and this 
is very important.
    Mr. Donovan, in your testimony you spoke about the FCC 
allowing a load factor of 30 percent, which failed to 
accurately reflect mobile broadband in rural areas. Given the 
increased reliance on mobile devices in many rural communities 
do you believe that tightening the FCC's parameters as 
mentioned in your testimony will have the effect of helping 
close the digital divide between rural and urban areas?
    Mr. DONOVAN. Yes, sir, and thank you for the question. So 
if you have that load factor set too low, at 30 percent, then 
people aren't actually going to be getting the speeds when the 
network is actually in use. And this isn't only a small carrier 
issue. Even Verizon in the record noted how nearby to your 
state in the panhandle of Oklahoma that load is consistently 
above the 30 percent; it is only there about a third of the 
time. And that is because people are reliant on their mobile 
devices to connect to the internet as well as the fact that 
rural sites are more likely to be served using low band 
spectrum.
    Low band spectrum is great because it travels long 
distances. You need fewer towers to build out and so in areas 
with low population density it is what you want to use. The 
tradeoff of that is lower capacity. So to make up for the way 
that those sites are engineered, you need to have a loading 
factor that is at least 50 percent, if not higher.
    Mr. VEASEY. Would these tightened parameters create an 
incentive for more funding to be invested to increase mobile 
broadband development in rural areas?
    Mr. DONOVAN. Yes, so they would help make the correct areas 
eligible for support as well as help give you a more reliable 
picture of what the need is. Until we have a reliable map, you 
know, we support all the discussions of making additional 
funding available for building out broadband and mobile 
services in rural areas. But until you know the size of those 
coverage gaps, it is really hard to determine what amount of 
support is necessary to close that.
    Mr. VEASEY. We know that reliable broadband allows for 
friends, families, and businesses to stay connected, as has 
been articulated here today. Can you talk a little about how 
affordable high-speed internet improves the lives of people 
living in rural America and making these towns a more 
attractive place to live, work, and raise a family?
    As you know, one of the things that you hear about rural 
America, at least all around Texas and I am sure around the 
country, is that they actually have a hard time keeping a lot 
of their talent there. Kids go off to college, get educated, 
and then they don't want to come back to these towns because 
there is not a lot of opportunity. Can you talk a little bit 
about how bringing broadband out to rural areas may sort of 
help them economically and then even be able to retain some of 
their local talent?
    Mr. DONOVAN. Sure. So, you know, at one of our recent trade 
show conferences. the CTO from one of our rural providers was 
asked the question what do rural Americans want out of 5G? And 
the answer is simple: It is the same thing as everyone else.
    We have heard talk today about telemedicine and, you know, 
a fifth of the population lives in rural areas, but with only 
about 10 percent of the physicians. If you want to get them the 
care they need, you need to make sure that you have broadband 
access.
    Ranking Member Stauber mentioned payments. Just last 
weekend I was in Western Maryland, an area that looks like it 
is served on the map, turns out it is not. I am standing at a 
table for a local foundation and the gentleman in front of me 
in line said do you accept cash or credit? And they said 
``accept credit if it is going to work.'' You know, that is not 
reliable enough for somebody to conduct a business. And for 
somebody who is used to having connectivity, it is not a viable 
place for them to go and then to locate and try and, you know, 
start a business or raise a family.
    Mr. VEASEY. Well, thank you. Yeah, that is fascinating.
    I yield back the balance of my time.
    Chairman GOLDEN. Thank you, sir. And we will now go ahead 
and recognize Congressman Troy Balderson. He is the Ranking 
Member of the Subcommittee on Innovation and Workforce 
Development.
    Mr. BALDERSON. Thank you, Mr. Chairman. Good morning, 
everyone, and thank you for being here this morning.
    My first question is for Ms. Osler. In your testimony you 
mentioned how the rural nature of service territories can cause 
unique difficulties in providing service. During my time in the 
Ohio State Legislature, I would hear how something as simple as 
a ravine or a forest line could prevent accurate maps from 
being constructed, greatly reducing broadband service 
capabilities.
    How can government work better with the private sector to 
ensure the most accurate map is created? That is the first 
question. A follow-up to that would be and what can the FCC do 
to engineer the most granular maps?
    Ms. OSLER. Thank you very much, sir. I think we have kind 
of touched on that and that is that we have to use a deeper 
level of data. And I think, for example, shapefiles might be 
one of the ways to do that. I know we already use shapefiles to 
get data to the state as to where we provide service.
    Just a quick story. One of the state senators in Maine 
called us and said I have a business that wants to locate here, 
but they said they can't because there is no internet service 
where they are. There was fiber running right in front of the 
building.
    So there are all kinds of problems with not having accurate 
mapping. She was able to explain to him that he could get 
whatever he wanted.
    In my community, we have fiber to the home. How did we do 
that? We got help from the state to leverage the investment, so 
they gave us several hundred thousand dollars and we invested 
1.2 million more, and we were able to run over 200 miles of 
fiber. These are the kind of things that after you do that, as 
a businessperson, if it doesn't show up on the map, it is kind 
of annoying and it is very frustrating for customers.
    So the map--everything comes back initially to the maps. 
From there, if you have accurate maps, from there you can do 
all kinds of things. Without that accuracy, you get people off 
on tangents and making decisions based on inadequate or 
erroneous information.
    Mr. BALDERSON. I promise I won't have a tangent, but the 
Ranking Member also showed and Representative Hagedorn, I mean, 
these are very, very misleading and very, very inaccurate, so, 
hopefully, we can address that issue. Thank you very much for 
your answer, though.
    My next question is for Mr. Hendricks. In your testimony 
you talk about the inability for Americans to challenge the 
speed being advertised to them and the speed that is being 
delivered. How can we enable Americans to voice their concerns 
without creating additional burdens for smaller telecom 
providers?
    Mr. HENDRICKS. Thank you for the question. With respect to 
being able to look at it, I think there are two parts. There is 
a proposal called crowdsourcing, which would allow people to do 
speed tests and then report it as their own verification. And I 
think that is an important thing to allow and to consider.
    I did caution in my written statement about overreliance on 
that because there can be some inaccuracies whenever you are 
talking about customer devices within a home on networks that 
we don't control. It can result in an understatement of what 
the speed availability is. But if there are a bunch of data 
points showing consistent things, then, yeah, I think that 
should be considered.
    As far as the second part, which would be a challenge 
process, we are fully in support of a challenge process to 
allow any entity to challenge that broadband is available in a 
certain area or not available. So, before any funding decisions 
are made, there should be an opportunity to allow people to 
challenge the accuracy of the map, particularly providers who 
may be impacted by the funding decisions.
    Mr. BALDERSON. Okay, thank you very much. Mr. Chairman, I 
apologize, I yield back my remaining time.
    Chairman GOLDEN. Thank you very much for that. Do you have 
any interest in asking any more questions?
    All right. You all set?
    All right, I am going to go ahead and go into additional 
round and we will let Mr. Stauber start.
    Mr. STAUBER. Thank you, Mr. Chair. I just want to reiterate 
what I said. You know, one of the statements here is, ``This 
new map will be borne out of the collective efforts of small 
telecos, large telecos, and the FCC.'' You folks matter. You 
need to be at the table and I want to assure you that the 
Chairman and I will make sure you are at the table to represent 
rural America. You have experience. You understand, as Ms. 
Osler said, you know where it is at and where it is not at from 
being in the community.
    And I just can't reiterate enough to you, please work with 
us, give us your suggestions, because the Chairman and I want 
to make sure that your rural experience is brought into this 
mapping process to make it better.
    Thank you, Mr. Chair.
    Chairman GOLDEN. Well, with that, I think we have covered 
pretty much all of it, looking through your testimony and the 
back-and-forth of the questions. And we could keep going, but, 
as Ms. Osler just indicated, you know, I think often we end up 
coming back to the same responses here and there is good reason 
for that, because your testimony has been excellent and we 
appreciate it very much.
    Jeez, I can't help but, you know, say that just last week I 
was having a bit of an issue with government and talking about 
how important accurate information is. In this case it was back 
home in Maine having to do with lobstermen. It is no different 
here with the FCC. We need to expect that the government is 
going to have the most accurate data and information available 
in order to make decisions. We owe that to the people of the 
country.
    It is maybe perhaps out of fashion to legislate in great 
detail, but then when we hand things off to Federal agencies to 
implement the intent and will of Congress it requires a lot of 
oversight. That is what we are doing here.
    We appreciate you coming in and we will continue to push to 
try and get the FCC to work more closely with you because you 
are like boots on the ground, the little force multipliers that 
they should be working with to get more accurate information 
and data rather than kind of butting heads with, so to speak.
    We could go on and on and on, everyone up here and all of 
you and probably a lot of other people, about all the stories 
about how broadband access just isn't cutting it in rural 
America, so I am not going to go off on a tangent. I would love 
to, but probably could pull 10 stories out of my pocket right 
now, but this is an important issue. I want to thank everyone 
for working together on it building up to this hearing, but 
also going forward because there is a lot of work to be done, 
and we look forward to working with all of you.
    I want to thank the Committee staff, as well, for all the 
work that is going into this. And it is not just the work that 
went into the Committee, but following this issue closely and 
helping make sure that we are in a good place to make some real 
progress. Not enough to pass a new grant program. We got to 
make sure that it is effective and implemented in an effective 
way, so that it is actually benefiting our small businesses, 
our families, and communities back home.
    We know how important this is. It is a major issue to 
unlocking opportunity in rural areas in the remainder of this 
century and going into the future. Accurate maps, we can't 
spend money on investing in infrastructure if we don't have 
accurate data. Like you said, Ms. Osler, the limited resources 
require that we spend it most wisely.
    So thank you all very much for being a part of this. I 
would ask that we have unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record. Without objection, so ordered.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
